PROOF OF SERVICE
I, the undersigned, declare that I am over the age of
eighteen (18) years and not a party to the within action. My
residence address is 9950 Topanga Canyon Bl., #85, Chatsworth,
CA 91311, and I am a resident of the County of Los Angeles.
On May 24, 2021, I served the following documents:
PETITION FOR WRIT OF CERTIORARI AND MANDATE FOR
APPROVAL OF THE EXECUTIVE BRANCH (ARTICLE TWO)
OF U.S. GOVERNMENT PRIOR TO ANY FURTHER RULINGS
BY COURTS IN ANY FURTHER CASES OR CONTROVERSIES
[ X ] BY MAIL: I placed a true copy of the documents
indicated above in sealed envelopes, with first-class postage
thereon fully prepaid. I then placed such envelope for deposit in
the United States Postal Service this same day in the County of
Los Angeles, State of California. The addressees for such
envelopes were the following:
Clerk of The Superior Court
__ County of Los Angeles (Central District)
111 North Hill Street, Los Angeles, CA 90012

Sonya Bhatia
417 S. Barrington Ave., Apt. #101
Los Angeles, CA 90049
I declare, under the penalty of perjury under the laws of
the United States, that the foregoing Proof of Service is true and
correct. Executed on this 24th day of May 2021.
AuuU hjtXfo
Name: Malini Mehta

Proof of Service

